Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




LOWER LIMB PROSTHETICS CLAIMS
PAID TO OZARK PROSTHETICS AND
 ORTHOTICS WERE NOT ALWAYS
   SUPPORTED BY ADEQUATE
       DOCUMENTATION


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                        April 2013
                                                      A-07-12-05029
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


 THIS REPORT CONTAINS RESTRICTED INFORMATION

This report should not be reproduced or released to any other party
without specific written approval from OAS.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1), 1861(s)(6), (s)(8), and (s)(9), and 1861(n) of the Social Security
Act, Medicare Part B provides for the coverage of durable medical equipment (DME),
prosthetics, orthotics, and supplies (DMEPOS). The Centers for Medicare & Medicaid Services
(CMS) contracts with four DME Medicare administrative contractors (DME MAC) to process
and pay Medicare Part B claims.

When submitting claims to DME MACs, suppliers use Healthcare Common Procedure Coding
System (HCPCS) codes as well as modifiers that indicate left or right limb and a functional level.
Each claim can include multiple HCPCS codes, each of which represents a different component
of the lower limb prosthetic provided by the supplier. A lower limb prosthetic is an artificial
replacement for any or all parts of the leg and provides an individual who has an amputated limb
with the opportunity to perform functional tasks, particularly walking, which may not be possible
without the device.

DME MACs develop local coverage determinations (LCD) for some covered DMEPOS items.
LCDs describe the circumstances for Medicare coverage for lower limb prosthetics and outline
the conditions under which DME MACs will cover those devices. LCDs require that some lower
limb prosthetics have minimum functional levels to be covered by Medicare.

To be paid for a Medicare DMEPOS claim, the supplier must have on file: (1) written
documentation of a verbal order/preliminary written order, (2) a detailed written order, (3) proof
of delivery, (4) a beneficiary authorization, (5) information from the treating physician
concerning the patient’s diagnosis, and (6) any information required for the use of specific
modifiers or attestation statements as defined in certain DME policies.

A DMEPOS supplier should also obtain as much documentation from the patient’s medical
records as it requires to ensure that the coverage criterion for an item has been met. If the
information in the patient’s medical records does not adequately support the medical necessity
for the item, the supplier is liable for the dollar amount involved.

This review was completed as followup work to the Office of Inspector General, Office of
Evaluation and Inspections, review, Questionable Billing by Suppliers of Lower Limb
Prostheses, issued in August 2011.

Kessler Heasley Artificial Limb, also known as Ozark Prosthetics & Orthotics (Ozark), based in
Springfield, Missouri, supplies lower limb prosthetics.

OBJECTIVE

Our objective was to determine whether Ozark’s paid claims for lower limb prosthetics were
supported in accordance with Medicare DMEPOS documentation requirements.



                                                 i
SUMMARY OF FINDINGS

Ozark’s paid claims for lower limb prosthetics were not always supported in accordance
with Medicare DMEPOS documentation requirements. Of the 99 reviewed beneficiary-
days (a beneficiary-day represents claim(s) paid for 1 beneficiary for 1 day) totaling
$1,102,611 in payments, 50 beneficiary-days were supported in accordance with
Medicare DMEPOS documentation requirements. However, the remaining 49
beneficiary-days were either not supported or were only partially supported in accordance
with Medicare DMEPOS documentation requirements. Specifically, we identified the
following deficiencies (10 beneficiary-days had 2 errors each and 2 beneficiary-days had
3 errors each):

   •   For 46 beneficiary-days, Ozark did not have documentation from the patients’
       medical records supporting the medical necessity of the items for which it had
       submitted the claims.

   •   For 12 beneficiary-days, Ozark’s documentation did not support the minimum
       functional level, as required by the LCD, of the prosthetics for which it had
       submitted the claims.

   •   For three beneficiary-days, Ozark submitted claims that included HCPCS codes
       which, when billed in combination with certain other HCPCS codes, were not
       reasonable or necessary as required by the LCD.

   •   For two beneficiary-days, Ozark did not obtain properly completed written orders
       from physicians before submitting the claims.

Ozark submitted unsupported claims because it lacked adequate internal controls to ensure that it
collected and maintained the required documentation. As a result of these errors, Ozark received
payments totaling $67,306 for the 49 beneficiary-days that were not supported in accordance
with Medicare DMEPOS documentation requirements during the period January 1, 2009,
through December 31, 2011.

RECOMMENDATIONS

We recommend that Ozark:

   •   refund $67,306 to the Federal Government for unallowable lower limb prosthetic claims
       and

   •   strengthen internal controls by developing and implementing policies and procedures to
       help ensure that it collects and maintains the required documentation and conforms to the
       requirements of the LCD.




                                                ii
AUDITEE COMMENTS

In written comments on our draft report, Ozark partially concurred with our findings. Ozark
stated that if there is doubt on documentation, Ozark should get credit for having it. Ozark also
described procedures it had implemented to allow its staff to know whether required
documentation is in place. Additionally, Ozark stated that many of its patients who are initially
evaluated at a lower functional level can attain a higher functional level “in a couple of months.”

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Ozark’s comments, we maintain that our findings and recommendations are
valid. The provisions of CMS’s Medicare Program Integrity Manual, the Jurisdiction D DME
MAC Supplier Manual, and the LCD for lower limb prosthetics are very specific as to the
requirements that must be met for these types of claims to be allowable, and we continue to
believe that the claims we questioned did not conform to these requirements.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Coverage of Durable Medical Equipment ...........................................1
              Medicare Durable Medical Equipment Documentation Requirements ...............2
              Ozark Prosthetics and Orthotics...........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................3

          MEDICARE DOCUMENTATION REQUIREMENTS NOT MET ............................. 4
            Necessity of Claim Items Not Substantiated by Medical Records ............................ 4
            Minimum Functional Level of Claimed Items
               Not Supported by Documentation ....................................................................... 5
            Claims Not Reasonable and Necessary...................................................................... 6
            Detailed Written Order Not Obtained Prior to Claim Submission ............................ 6

          INADEQUATE INTERNAL CONTROLS ................................................................... 6

          OVERPAYMENTS FOR UNSUPPORTED CLAIMS.................................................. 7

          RECOMMENDATIONS .................................................................................................7

          AUDITEE COMMENTS.................................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................7

APPENDIX

          AUDITEE COMMENTS




                                                                    iv
                                                INTRODUCTION

BACKGROUND

Medicare Coverage of Durable Medical Equipment

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over, people with disabilities, and people with
permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers
the Medicare program.

Pursuant to sections 1832(a)(1), 1861(s)(6), (s)(8), and (s)(9), and 1861(n) of the Act, Medicare
Part B provides for the coverage of durable medical equipment (DME), prosthetics, orthotics,
and supplies (DMEPOS). Section 1862(a)(1)(A) of the Act requires that, to be paid by
Medicare, a service or an item be reasonable and necessary for the diagnosis or treatment of
illness or injury or to improve the functioning of a malformed body member.

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, enacted December 8, 2003, CMS contracted with four DME Medicare
administrative contractors (DME MAC) to process and pay Medicare Part B claims for
DMEPOS. When submitting claims to DME MACs, suppliers use Healthcare Common
Procedure Coding System (HCPCS) codes 1 as well as modifiers that indicate left or right limb
and a functional level. 2 Each claim can include multiple HCPCS codes, each of which
represents a different component of the lower limb prosthetic provided by the supplier. A lower
limb prosthetic is an artificial replacement for any or all parts of the leg and provides an
individual who has an amputated limb with the opportunity to perform functional tasks,
particularly walking, which may not be possible without the device.

DME MACs develop local coverage determinations (LCD) for some covered DMEPOS items.
LCDs describe the circumstances for Medicare coverage for lower limb prosthetics and outline
the conditions under which DME MACs will cover those devices. LCDs require that some lower
limb prosthetics have minimum functional levels to be covered by Medicare.

This review was completed as followup work to an Office of Inspector General, Office of
Evaluation and Inspections, review. 3


1
  HCPCS codes are used throughout the health care industry as a standardized coding system for describing and
identifying health care equipment and supplies in health care transactions.
2
  Lower limb prosthetic functional levels are submitted in terms of K-levels. Functional levels range from a K0 (the
patient does not have the ability or potential to ambulate or transfer safely with or without assistance, and a
prosthetic does not enhance his/her quality of life or mobility) through a K4 (the patient has the ability or potential
for prosthetic ambulation that exceeds basic ambulation skills and that exhibits high impact, stress, or energy levels;
this level is typical of the prosthetic demands of the child, active adult, or athlete). Potential functional ability is
based on the reasonable expectations of the prosthetist and treating physician.
3
    Questionable Billing by Suppliers of Lower Limb Prostheses (OEI-02-10-00170), issued August 2011.

                                                           1
Medicare Durable Medical Equipment Documentation Requirements

Pursuant to the Jurisdiction D DME MAC Supplier Manual, before submitting a claim to the
DME MAC, the supplier must have on file: (1) written documentation of a verbal order/
preliminary written order, (2) a detailed written order, (3) proof of delivery, (4) a beneficiary
authorization, (5) information from the treating physician concerning the patient’s diagnosis, and
(6) any information required for the use of specific modifiers or attestation statements as defined
in certain DME policies.

A DMEPOS supplier should also obtain as much documentation from the patient’s medical
record as it requires to ensure that the coverage criterion for an item has been met. If the
information in the patient’s medical record does not adequately support the medical necessity for
the item, the supplier is liable for the dollar amount involved.

Ozark Prosthetics and Orthotics

Kessler Heasley Artificial Limb, also known as Ozark Prosthetics and Orthotics (Ozark), based
in Springfield, Missouri, supplies lower limb prosthetics.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Ozark’s paid claims for lower limb prosthetics were
supported in accordance with Medicare DMEPOS documentation requirements.

Scope

We reviewed a total of $2,311,483 in DMEPOS claims that Ozark submitted for lower limb
prosthetics and that DME MACs paid during the period January 1, 2009, through December 31,
2011.

Our review focused on whether Ozark met Medicare documentation requirements for lower limb
prosthetics. We did not conduct a medical review to determine whether the services were
medically necessary. However, we communicated with Noridian Administrative Services, LLC
(Noridian), 4 about the allowability of certain HCPCS codes and the LCD for the lower limb
prosthetics.

We did not review Ozark’s overall internal control structure. We limited our review of internal
controls to those related to our audit objective.

We conducted our fieldwork in June 2012 at Ozark’s office in Springfield, Missouri.


4
 Noridian is the DME MAC for Medicare DME Jurisdiction D. Ninety-seven percent of the claims submitted by
Ozark were processed and paid by Noridian.


                                                     2
Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and DME MAC guidance;

    •    reviewed Ozark’s policies and procedures for submitting claims for lower limb
         prosthetics;

    •    interviewed staff at Ozark to gain an understanding of its process for billing DMEPOS
         claims for lower limb prosthetics;

    •    discussed with staff at Noridian the allowability of lower limb prosthetic claims that
         contained HCPCS code L7368 (lithium ion battery charger);

    •    obtained electronic paid claims data for Ozark during the period January 1, 2009, through
         December 31, 2011;

    •    selected a sample of 99 paid beneficiary-days 5 from the 386 paid beneficiary-days during
         the period January 1, 2009, through December 31, 2011;

    •    obtained and reviewed the supporting documentation for each beneficiary-day that we
         reviewed to determine the allowability of the claims; and

    •    discussed the results of our review with Ozark officials on June 8, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

Ozark’s paid claims for lower limb prosthetics were not always supported in accordance
with Medicare DMEPOS documentation requirements. Of the 99 reviewed beneficiary-
days totaling $1,102,611 in payments, 50 beneficiary-days were supported in accordance
with Medicare DMEPOS documentation requirements. However, the remaining 49
5
 Beneficiary-days are paid DMEPOS claims that were grouped by unique Medicare health insurance code and date
of service. Stated differently, a beneficiary-day represents claim(s) paid for 1 beneficiary for 1 day.

We designed this audit with the intent of using statistical sampling. However, the statistical projection resulted in
questioned costs that were only slightly higher than the results from the sample items. Therefore, we elected to
report only on the results of the 99 sample items that we reviewed. Our reviewed claims consisted of all paid
beneficiary-days (28) with claimed costs greater than or equal to $15,000, along with an additional 71 paid
beneficiary-days that were randomly selected from the remaining 358 paid beneficiary-days whose claimed costs
were less than $15,000 but greater than $1,000.

                                                           3
beneficiary-days were either not supported or were only partially supported in accordance
with Medicare DMEPOS documentation requirements. Specifically, we identified the
following deficiencies (10 beneficiary-days had 2 errors each and 2 beneficiary-days had
3 errors each):

   •   For 46 beneficiary-days, Ozark did not have documentation from the patients’
       medical records supporting the medical necessity of the items for which it had
       submitted the claims.

   •   For 12 beneficiary-days, Ozark’s documentation did not support the minimum
       functional level, as required by the LCD, of the prosthetics for which it had
       submitted the claims.

   •   For three beneficiary-days, Ozark submitted claims that included HCPCS codes
       which, when billed in combination with certain other HCPCS codes, were not
       reasonable or necessary as required by the LCD.

   •   For two beneficiary-days, Ozark did not obtain properly completed written orders
       from physicians before submitting the claims.

Ozark submitted unsupported claims because it lacked adequate internal controls to ensure that it
collected and maintained the required documentation. As a result of these errors, Ozark received
payments totaling $67,306 for the 49 beneficiary-days that were not supported in accordance
with Medicare DMEPOS documentation requirements during the period January 1, 2009,
through December 31, 2011.

MEDICARE DOCUMENTATION REQUIREMENTS NOT MET

Necessity of Claim Items Not Substantiated by Medical Records

Chapter 5, section 5.7, of CMS’s Medicare Program Integrity Manual, Pub. No. 100-08 (the
manual), states:

       For any DMEPOS item to be covered by Medicare, the patient’s medical record
       must contain sufficient documentation of the patient’s medical condition to
       substantiate the necessity for the type and quantity of items ordered … if the
       information in the patient’s medical record does not adequately support the
       medical necessity for the item, then on assigned claims the supplier is liable for
       the dollar amount involved.

Further, Chapter 5, section 5.8, of the manual provides that “[t]he supplier should … obtain as
much documentation from the patient’s medical record as they determine they need to assure
themselves that coverage criteria for an item have been met.”




                                                4
For 46 of the 99 beneficiary-days that we reviewed, Ozark did not have documentation from the
patients’ medical records supporting the medical necessity of the items for which it had
submitted the claims (6 beneficiary-days had more than 1 error). Specifically:

   •   For 25 beneficiary-days, Ozark submitted claims using HCPCS code L7520 (repair
       prosthetic device, labor component, per 15-minute increments) without sufficient support
       for the actual repair time used. In accordance with Noridian’s Policy Article (A25367)
       effective January 2011, documentation must exist in the supplier’s records indicating the
       specific adjustment and/or repair performed and the time involved. One unit of service
       using HCPCS code L7520 represents 15 minutes of labor time; the time reported for this
       code must be only for actual repair time. Ozark’s records did not have sufficient support
       for the actual repair time involved in these procedures. As a result of these errors, Ozark
       received overpayments totaling $5,447.

   •   For 22 beneficiary-days, Ozark submitted claims using HCPCS code L7368 (lithium ion
       battery charger). This code is for a replacement charger for a prosthetic that contains
       electronic components. However, for each of these claims Ozark also billed for a
       different HCPCS code for a prosthetic that included a battery charger. Accordingly, an
       additional bill for a replacement battery charger was not allowable unless supported by
       documentation substantiating its necessity. Ozark’s documentation did not contain
       support for the necessity of a replacement charger. As a result of these errors, Ozark
       received overpayments totaling $8,017.

   •   For five beneficiary-days, Ozark did not maintain sufficient documentation to
       substantiate the necessity for the items ordered. The HCPCS codes for these items were
       not included on the physicians’ detailed written orders, and those items were therefore
       not authorized by the physicians. As a result of these errors, Ozark received
       overpayments totaling $4,274.

Minimum Functional Level of Claimed Items
Not Supported by Documentation

The LCD (L11453) for lower limb prosthetics states that a high-activity knee control frame
(HCPCS code L5930) is covered for patients whose functional level is K4.

For 12 of the 99 beneficiary-days that we reviewed, Ozark’s documentation did not support the
minimum functional level, as required by this LCD, of the prosthetics for which it had submitted
claims. Specifically, Ozark was paid for lower limb prosthetic claims that it had submitted using
HCPCS code L5930 which required a minimal functional level of K4. These claims were
unallowable because the physicians and/or the supplier assessed the beneficiaries as having a K3
functional level. Therefore, these claims did not meet the minimum functional level requirement
for HCPCS code L5930. As a result of these errors, Ozark received overpayments totaling
$29,141.




                                                5
Claims Not Reasonable and Necessary

From the LCD (L11453) for lower limb prosthetics:

   •   When an above-knee preparatory prosthesis L5590 is provided, the following codes will
       be denied as not reasonable and necessary: L5610, L5631, L5640, L5642, L5644,
       L5648, L5705, L5706, L5964, L5980, L5710-L5780, and L5790-L5795.

   •   When a preparatory below-knee prosthesis L5540 is provided, the following codes will
       be denied as not reasonable and necessary: L5629, L5638, L5639, L5646, L5647,
       L5704, L5785, L5962, and L5980.

For 3 of the 99 beneficiary-days that we reviewed, Ozark was paid for lower limb prosthetic
claims that included HCPCS codes which, when billed in combination with certain other HCPCS
codes, were not reasonable or necessary as required by the LCD. Ozark submitted two claims
with the unallowable combination of HCPCS codes L5980 and L5590 and one other claim with
the unallowable combination of HCPCS codes L5629 and L5540. Prosthetic substitutions and/or
additions of procedures and components are allowable in accordance with the functional level
assessment, except for combinations specifically identified in the LCD as not reasonable and
necessary. As a result of these errors, Ozark received overpayments totaling $6,414.

Detailed Written Order Not Obtained Prior to Claim Submission

Chapter 5, section 5.2.3, of the manual provides that a “supplier must have a detailed written
order prior to submitting a claim…. [T]he treating physician must … personally sign and date
the order … if the supplier does not have an order that has been both signed and dated by the
treating physician before billing the Medicare program, the item will be denied as not reasonable
and necessary.”

For 2 of the 99 beneficiary-days that we reviewed, Ozark did not obtain properly completed
detailed written orders from physicians before submitting the claims. As a result of these errors,
Ozark received overpayments totaling $14,013.

INADEQUATE INTERNAL CONTROLS

Ozark submitted unsupported claims because it lacked adequate internal controls to ensure that it
collected and maintained the required documentation. Specifically, Ozark did not have policies
and procedures in place to ensure that it collected and maintained all required documentation for
lower limb prosthetic claims and that it billed only for properly supported HCPCS codes and for
HCPCS codes that were, according to the LCD, considered reasonable and necessary when billed
in combination with other billed HCPCS codes.




                                                6
OVERPAYMENTS FOR UNSUPPORTED CLAIMS

Of the 99 beneficiary-days that we reviewed, 49 did not comply with the Medicare DMEPOS
requirements. Ozark received overpayments totaling $67,306 for unsupported lower limb
prosthetic claims during the period January 1, 2009, through December 31, 2011.

RECOMMENDATIONS

We recommend that Ozark:

   •   refund $67,306 to the Federal Government for unallowable lower limb prosthetic claims
       and

   •   strengthen internal controls by developing and implementing policies and procedures to
       help ensure that it collects and maintains the required documentation and conforms to the
       requirements of the LCD.

AUDITEE COMMENTS

In written comments on our draft report, Ozark partially concurred with our findings. Ozark
stated that if there is doubt on documentation, Ozark should get credit for having it. Ozark added
that codes were sometimes missed on written detailed orders. Ozark explained that it had
implemented several procedures to allow its staff to know whether required documentation is in
place, and said that orders will now be checked for missing or inappropriate codes before being
sent to doctors’ offices. Ozark also noted that if orders are subsequently changed, updated orders
will be provided to doctors’ offices. Additionally, Ozark stated that many of its patients who are
initially evaluated at a lower functional level can attain a higher functional level “in a couple of
months.” Ozark concluded by saying that procedures would be brought up to standards and kept
that way.

Ozark’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Ozark’s comments, we maintain that our findings and recommendations are
valid. The provisions of CMS’s Medicare Program Integrity Manual, the Jurisdiction D DME
MAC Supplier Manual, and the LCD for lower limb prosthetics are very specific as to the
requirements that must be met for these types of claims to be allowable, and we continue to
believe that the claims we questioned did not conform to these requirements.




                                                 7
APPENDIX
                            APPENDIX: AUDITEE COMMENTS




         PROSTHETICS
&ORTHOTICS
3250 S DelawareAve
Springfield Mo. 65804
Patrick J. Cogley
Office of Audit Services, Region VII                            January 3 1,2013
60 I East 12'h Street Room 0429                                 Report number: A-07-05029
Kansas C ity Mo 641 06

Mr. Cogley,
This response is to the audit report received for Ozark Prosthetics & Orthotics for the period of
January 0 I, 2009 through December 31, 20 11 .
Basically I concur with the audit findings, but not all of them. If there is doubt on documentation,
the supplier should get credit for having it.
 In the last couple of years there have been several procedures implemented that allow the staff to
know if the required documentation is in place. There is now documentation in the patient
electronic chart as well as a form that allows the staff to know where in the paperwork process
each document is at. The form allows monitoring for who c hecked the documentation, when, and
the status of the it. Only after the form is completed/entered into the electronic record is the
device/item fabricated/ordered, and then delivered.
On the written detailed orders missing codes, codes were sometimes missed on the code sheet and
entered after the Written Detailed Order was sent to the Dr. Now, there are no Written Detailed
Orders sent out until after each order is checked for missing or inappropriate codes. Should the
order be changed ·b y the practitioner a new Detailed Written Order is sent to the Dr. with explaniton
and for his signature.
Several of our adult patients are potential K4 patients. They are motivated and anxious to get back
to their lives. Many of them work regular jobs, hunt, fish, play golf, tennis, and fann, which make
them a high activity patient. These patents are at a K3 when we first evaluate them because they
sti ll have to learn the basics ofusing a prosthesis. Normally in a couple of months, they are up to a
K4 and the knee will have to be replaced.

Thank you for your input and suggestions. We will make sure everything is brought up to standards
and kept that way.


Respectfully,

~~0 --..
Nella M. Jones.   T .~ 1\




Office Manager
